MATANUSKA VALLEY FEDERAL CREDIT UNION
VISA CLASSIC CREDIT CARD AGREEMENT

1020 S. Bailey St.
Palmer, Alaska 99645
(907) 745-4891
(907) 694-4891
Fax: (907) 745-9131
www.mvfcu.coop

1.
INTRODUCTION. This Agreement covers this VISA Classic Credit Card account, issued by Matanuska Valley Federal
Credit Union (“Lender”). In this Agreement the words “you,” “your,” “yours,” “applicant,” and “Borrowers” mean any person who
signs the application for this Account, any joint obligor, guarantor, authorized user, or the person whose name is embossed on the
Card. The words “we,” “us,” “our,” and “Lender” means the Matanuska Valley Federal Credit Union. The word “Card” means any
one or more credit cards issued under the Credit Union’s VISA Card program. If you sign an application for this Account or sign
or use any Card or PIN, or allow others to use the Card or PIN, you and they will have accepted this Agreement just as if you and
they signed it, and you and they, jointly and severally, will be bound by the following terms and conditions which will govern this
Account.
2.

ACCOUNT ACCESS.
a. Purchases and Cash Advances. You must sign the Card to use it. Once you have signed the Card, you can use it to buy or
lease goods or services, wherever the Card is honored, up to the full amount of your credit line. You may use your Account
to get cash advances from us. You may also use your Card to get a cash advance from participating financial institutions or
automated teller machine (ATM). You may use your Card to purchase goods and services any place your VISA Card is honored
by participating merchants. No purchase may exceed the available funds in your account. The Credit Union reserves the right
to refuse any transaction that would draw upon insufficient funds.
b. VISA Convenience Checks. If we approve, you may obtain advances under your Account by writing preprinted VISA
convenience loan checks that we supply to you. Your use of loan checks will be shown as cash advances on your monthly
statement. We may not honor your loan check if: your check is post-dated; payment of the check would exceed your Credit
Limit; a check is signed by person without authorized access; the amount of the check is less than the minimum required amount;
your Account has been terminated or suspended, or any drafts have been reported lost or stolen. You may stop payment on a
loan check if you provide us with the exact information describing the check. If you give us incorrect information, we will
not be responsible for failing to stop payment. You understand there may be a charge for each stop payment order requested.
Our liability for a wrongful dishonor is limited to your actual charges, however, a dishonor for the reasons stated above is not a
wrongful dishonor. Only the person whose name is printed on a convenience check may sign it. All convenience checks must
be written in U.S. dollars. We will not certify a convenience check. You may write these checks for any amount providing your
total outstanding balance does not exceed your available credit limit and your credit card account remains in good standing. We
are entitled to return it unpaid if there is not enough available credit on your account to pay it, if you are in default under this
Agreement, if your card or convenience checks have been reported lost or stolen, or if the convenience check is post-dated.
Over-limit fees will be charged as applicable. A VISA convenience check may not be used to make a payment on your VISA
credit card account. The Credit Union shall have no liability for any convenience check returned in excess of your credit line.

3.
YOU PROMISE TO PAY. You promise to pay us all such amounts, plus any Interest Charges, which arise from use of the
Card or Account by you or any other person, and to be jointly and severally liable with such a person, unless such other person
does not have actual, implied, or apparent authority for such use, and you received no benefit from the use. You promise to pay
us either by direct payment or by automatic transfers from shares.
4.
CREDIT LINE. This Agreement will constitute a revolving line of credit for an amount which will be the credit line under
your Account. You may access your credit line through VISA Credit Card purchases, cash advances at participating merchants and
loan checks. We will advise you of the amount of your credit line on your statement. That amount will be the maximum amount
you may have outstanding at any one time. You agree not to attempt to obtain more credit than the amount of your credit line.
However, if you temporarily exceed your credit line, you agree to repay the excess immediately, even if we have not yet billed you
and, if you have elected over-limit services, pay any over-limit fees. Obtaining such credit does not increase your credit line. We
retain the right to increase or decrease your credit line at any time for any reason. Any increase or reduction on the limit of your
credit line will be shown on your monthly statement or by separate notice together with any changes in the applicable minimum
monthly payments. Your eligibility for this credit line is determined by our loan policy and may be terminated at our sole discretion,
without demand or notice. You may close your credit line at any time by notifying us in writing and returning all Cards cut in half.
If you terminate this Agreement or if we terminate or suspend your credit privileges, the provisions of this Agreement and your
liability hereunder shall otherwise remain in full force and effect until you have paid us all sums due us under this Agreement and
returned all Cards.
5.
MINIMUM MONTHLY PAYMENT. You agree that you will pay each month not less than the minimum monthly payment
on or before the scheduled monthly due date. Minimum monthly payments include all amounts past due, late charges, over limit
amount, and the minimum regular payment. The minimum regular payment will be 3 percent of your outstanding balance (“New
Balance”) or $25.00, whichever is greater. If your outstanding balance is $25.00 or less, you agree to pay the balance in full. You
may pay in full for all your purchases and cash advances each month, or you may repay in monthly installments. We can accept late
payments or partial payments, or checks, drafts, and money orders marked “payment in full,” without prejudice to our rights under
this Agreement, which are hereby explicitly reserved. Payments will be applied first to any previous balance, cash accrued Interest
Charges, purchase accrued Interest Charges, other fees and charges, cash advances, purchases and any remaining amounts will be
applied to any other amount for which you are obligated under this Agreement. All payments should be mailed to [Matanuska

Valley Federal Credit Union, 1020 S. Bailey Street, Palmer, AK 99645]. Payments may also be made in person at any of
our branch offices. Payments that are mailed and received at or before 5:00 PM Pacific Time on any business day will be credited
to your account as of the date received; payments that are mailed and received after 5:00 PM Pacific Time on any business day, on
a weekend or federal holiday will be posted to your Account as of the next business day. Payments received at any of our branch
offices at or before 5:00 PM Pacific Time on any business day will be credited to your account as of that date; payments received
at any of our branch offices after 5:00 PM Pacific Time, on a weekend or federal holiday will be posted to your Account as of the
next business day. Payment crediting to your Account may be delayed up to five days if your payment is received by mail at any
other address or not accompanied by the remittance portion of your account statement. The minimum monthly payment may be
allocated at our discretion to pay off lower rate balances, such as promotional offers, before higher rate balances, such as cash
advances or purchases, as applicable, provided that payments in excess of the minimum monthly payment will be allocated first to
higher rate balances.
6.
SECURITY INTEREST. You grant the Credit Union a security interest under the Alaska Uniform Commercial Code
in any goods purchased through your VISA Credit Card Account. You agree that all collateral you have given the Credit Union to
secure other open-end consumer loan obligations (except dwelling secured loans), in the past and in the future, will secure your
obligations under this Agreement. In addition, by signing the Card Application, you have given us a security interest in all your
shares and deposits, present and future, and all accounts (except Individual Retirement Accounts) with the Credit Union you agree,
upon default, the Credit Union may apply all that is secured to pay any amounts due under this Agreement, without further notice
to you.
7.
MONTHLY STATEMENTS. Each month you will receive a statement showing purchases, cash advances, payments, and
credits made to your Account during the billing cycle, as well as your “New Balance,” any Interest Charge and any late charge or
other charges. Your statement also will identify the Minimum monthly payment you must make for that billing period and the date
it is due. You agree to retain for statement verification copies of transaction slips resulting from each purchase, each advance, and
other transaction on your Account. Unless you notify us of a billing error as described below, you accept your monthly statement
as an accurate statement of your Account with us.
8.
CIRCUMSTANCES UNDER WHICH AN INTEREST CHARGE WILL BE IMPOSED. The total outstanding balance
of purchases, cash advances and fees in the Account on the closing date of a billing cycle, including any Interest Charge will be
shown on the Periodic Statement for that billing cycle as the “New Balance.”
a. Cash Advances. An Interest Charge will be imposed on cash advances from the date each cash advance is made to the
date paid. There is no time period within which to pay to avoid a periodic Interest Charge on cash advances, including ATM
withdrawals, balance transfers, and convenience check cash advances.
b. Purchases. An Interest Charge will be imposed on VISA Credit Card purchases included in the new balance when the entire
new balance is not paid in full on or before the 15th of the month following the statement. This “grace period” allows you to
avoid an Interest Charge on purchases for a billing cycle. If you do not pay within the grace period, your Interest Charge will
be applied on the 15th of the month following the statement.
9.

PAYING INTEREST. Cash Advances and Balance Transfers will accrue interest beginning on the transaction date.

10.
METHOD USED TO DETERMINE THE BALANCE ON WHICH THE INTEREST CHARGE MAY BE COMPUTED
AND AMOUNT OF INTEREST CHARGE. The Credit Union figures the Periodic Interest Charge on your Account by applying
the Periodic Rate to the “Average Daily Balance” of purchases and previous unpaid cash advances for your Account separately. To
get the “Average Daily Balance” we take the beginning purchase and cash advance balances of your Account each day, add any new
purchases and subtract any payments or credits, unpaid Interest Charges and unpaid late charges and fees. This gives us the daily
balance. Then we add all the daily balances for the billing cycle and divide by the number of days in the billing cycle. This gives
us the Average Daily balance for both purchases and cash advances. The Interest Charge imposed during the billing cycle will be
determined by multiplying the Average Daily Balance by the Periodic Rate by the number of days in the billing cycle. Cash advances
made in the billing period will not be assessed the daily Interest Charge until after the 15th of the month. Also, no Interest Charge
is imposed on purchases if payments and credits are made sufficient to pay the “New Balance” shown on your periodic statement
on or before the 15th day of the month following the statement. The “Total Interest Charge” shown on your monthly statement
consists of the periodic Interest Charge on purchases and the periodic Interest Charge on cash advances.
11.
PERIODIC RATE AND CORRESPONDING ANNUAL PERCENTAGE RATE. The Periodic Rate and Annual Percentage
Rate are variable based on a margin and an index, which is the highest Prime Rate published in the Western Edition of the Wall
Street Journal. We add a margin to the index to obtain the Annual Percentage Rate. The margin we add may range from 4% to
7% based upon your credit qualifications. The index is determined on the first day of December. The Annual Percentage Rate may
change on the 16th day of January and any increase or decrease will affect the amount of the payment you will make. The Annual
Percentage Rate will never be more than 18%. The Annual Percentage Rate and Periodic Rate applicable to your account will be
based upon your credit qualifications and margin assigned to you and will be disclosed on a separate disclosure accompanying your
Card or this Agreement and shown on each monthly statement.
12.
CONDITIONS UNDER WHICH OTHER CHARGES MAY BE IMPOSED. We may impose fees and charges on
your Account as described below and in the amounts as set forth on the account disclosure that was provided
when you opened your Account:
a. Late Fee. If we do not receive your minimum payment within 6 days of the due date, we may impose a Late Fee. The Late
Fee cannot exceed the minimum payment due.
b. Cash Advance Fee. We charge a cash advance fee for each cash advance.

c. Over-Limit Charges. We currently do not impose a fee for this charge.
d. Returned Item Charge. If any check or draft we receive from you as payment for any amount you owed to us is returned
to us unpaid, we may impose a returned item fee.
e. Card Replacement Fee. We may impose a card replacement fee for each VISA card which is lost, stolen, or damaged.
f. Additional Card Fee. We will issue up to two (2) cards for your account free of charge at the time your account is opened.
We may impose an additional card fee for each VISA credit card in addition to your free card(s) and/or for a card that is issued
to an authorized user at the time other than when the account is opened.
g. Annual Card Fee. The annual fee for a VISA credit card will be set forth on the Rate and Fee disclosure accompanying this
Agreement.
h. Miscellaneous Photocopying. If you request a copy of a sales draft or other document, we may charge your Account a per
copy charge and a per hour charge. These charges cover the costs of locating, copying, and delivering the documents to you.
If a request is related to a billing error and an error is found, we will reverse any photocopying charges.
i. ATM Fees. If you use an ATM to obtain a cash advance and the ATM is not operated by us, you may be charged an ATM
surcharge by the ATM operator or an ATM network utilized for such a transaction. The ATM surcharge may be charged to
your account if you complete the transaction.
j. Attorney’s Fees and Costs. If you default on any part of this Agreement, you agree to pay us all costs to collect your
Account, including court costs and reasonable attorney fees and collection agency costs whether or not there is a lawsuit, and
fees on any appeal and fees for bankruptcy proceedings, appeals, and any post judgment collection services, if applicable.
13.

CONDITIONS OF CARD USE. The use of your Card and Account are subject to the following conditions:
a. Ownership of Cards. Any Card or other credit instrument or device which we supply to you is our property and must
be returned to us, or to any person whom we authorize to act as our agent, or to any person who is authorized to honor the
Card, immediately according to instructions. The Card may be repossessed at any time at our sole discretion without demand
or notice. You cannot transfer your Card or Account to another person. You may not use the Card for any illegal or unlawful
transactions and we may decline to authorize any transaction that we believe poses an undue risk of illegality or unlawfulness.
b. Honoring the Card. Neither we nor merchants authorized to honor the Card will be responsible for the failure or refusal
to honor the Card or any other credit instrument or device we supply to you. If a merchant agrees to give you a refund or
adjustment, you agree to accept a credit to your Account in lieu of a cash refund.
c. Currency Conversion/Foreign Transaction Fee. Purchases and cash advances made in foreign countries will be billed to
you in U.S. dollars. The currency conversion rate for international transactions as established by VISA International, Inc. is
a rate selected by VISA from the range of rates available in wholesale currency markets for the applicable central processing
date, which rate may vary from the rate VISA itself receives, or the government-mandated rate in effect for the applicable
central processing date. In addition, you will be charged a Foreign Transaction Fee of 2% of the transaction amount for any
card transaction made in a foreign country.
d. Notices and Payments. All notices will be sent to your address as shown on your credit union account. You agree to advise
us promptly if you change your mailing address. All payments should be mailed to us at the remittance address shown on your
monthly statements. Payments received at that address will be credited to your Account as of the date received.
e. Personal Identification Number. We will issue you a Personal Identification Number (“PIN”) for use with your Card
at automatic teller machines (“ATMs”). These numbers are issued to you for your security purposes. These numbers are
confidential and should not be disclosed to third parties. You are responsible for safekeeping your PIN. You agree not to disclose
or otherwise make available your PIN to anyone not authorized to sign on your Account. To keep your Account secure, please
do not write your PIN on your Card or keep it in the same place as your Card.

14.
DEFAULT. You will be in default under this Agreement if any of the following occur: (a) Any minimum monthly payment
is not made when due; (b) You become insolvent, bankrupt, or you die; (c) You violate any part of this Agreement, or any other
agreement with us; or (d) if we reasonably deem ourselves insecure on your credit line. We will notify you in writing of any such
action as soon as practical if it occurs. Upon default, we may declare the entire unpaid balance immediately due and payable, and
you agree to pay that amount plus any attorney’s fees and costs including collection agency costs incurred by us. We can delay
enforcing any right under this Agreement without losing that right or any other right. A negative credit report reflecting on your
credit record may be submitted to a credit-reporting agency if you fail to fulfill the terms of this Agreement.
15.
CREDIT INFORMATION/FINANCIAL STATEMENTS. You authorize us to release information to others (e.g., credit
bureaus, merchants, and other financial institutions) regarding the status and history of your credit line. You agree to provide us, at
any time we deem necessary, with a current financial statement and updated credit information upon request. We may investigate
your credit directly or through a credit-reporting agency.
16.
LOSS OR THEFT OF VISA CREDIT CARD. You agree to notify us immediately of the loss, or the theft, or the use
without your permission, of any Card or other credit instrument or device which we supply to you. You may be liable for the
unauthorized use which occurs after you notify: Matanuska Valley Federal Credit Union, 1020 South Bailey Street, Palmer, AK
99645 or Telephone: (907) 745-4891 or (907) 694-4891 orally or in writing of loss, theft, or possible unauthorized use. If you
notify us of your lost or stolen Credit Card after discovery, you may not be liable for any losses related to credit transactions. This
zero liability will apply provided you were not grossly negligent or fraudulent in handling your Card; otherwise your liability for
unauthorized VISA Credit Card transactions shall not exceed $50.
17.
BILLING ERRORS NOTICE RIGHTS FOR VISA CREDIT CARD TRANSACTIONS. Keep this document for future
use. This notice tells you about your rights and our responsibilities under the Fair Credit Billing Act.
What To Do If You Find A Mistake On Your Statement. If you think there is an error on your statement, write to us at: [Matanuska

Valley Federal Credit Union, 1020 South Bailey Street, Palmer, AK 99645]. In your letter, give us the following information:
• Account information: Your name and account number.
• Dollar amount: The dollar amount of the suspected error.
• Description of problem: If you think there is an error on your bill, describe what you believe is wrong and why you believe
it is a mistake.
You must contact us:
• Within 60 days after the error appeared on your statement.
• At least 3 business days before an automated payment is scheduled, if you want to stop payment on the amount you think
is wrong.
You must notify us of any potential errors in writing. You may call us, but if you do, we are not required to investigate any
potential errors and you may have to pay the amount in question.
What Will Happen After We Receive Your Letter. When we receive your letter, we must do two things:
a.
Within 30 days of receiving your letter, we must tell you that we received your letter. We will also tell you if we
have already corrected the error.
b.
Within 90 days of receiving your letter, we must either correct the error or explain to you why we believe the
bill is correct.
While we investigate whether or not there has been an error:
• We cannot try to collect the amount in question or report you as delinquent on that amount.
• The charge in question may remain on your statement, and we may continue to charge you interest on that amount.
• While you do not have to pay the amount in question, you are responsible for the remainder of your balance.
• We can apply any unpaid amount against your credit limit.
After we finish our investigation, one of two things will happen:
• If we made a mistake: You will not have to pay the amount in question or any interest or other fees related to that amount.
• If we do not believe there was a mistake: You will have to pay the amount in question, along with applicable interest and
fees. We will send you a statement of the amount you owe and the date payment is due. We may then report you as delinquent
if you do not pay the amount we think you owe.
If you receive our explanation but still believe your bill is wrong, you must write to us within 10 days telling us that you still
refuse to pay. If you do so, we cannot report you as delinquent without also reporting that you are questioning your bill. We
must tell you the name of anyone to whom we reported you as delinquent, and we must let those organizations know when
the matter has been settled between us. If we do not follow all of the rules above, you do not have to pay the first $50 of the
amount you question even if your bill is correct.
Your Rights IfYou Are DissatisfiedWithYour Credit Card Purchases . If you are dissatisfied with the goods or services that you have
purchased with your credit card, and you have tried in good faith to correct the problem with the merchant, you may have the
right not to pay the remaining amount due on the purchase. To use this right, all of the following must be true:
a.
The purchase must have been made in your home state or within 100 miles of your current mailing address, and
the purchase price must have been more than $50. (Note: Neither of these are necessary if your purchase was based on
an advertisement we mailed to you, or if we own the company that sold you the goods or services.)
b.
You must have used your credit card for the purchase. Purchases made with cash advances from an ATM or with
a check that accesses your credit card account do not qualify.
c.
You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied with the purchase, contact us in writing at the above address.
While we investigate, the same rules apply to the disputed amount as discussed above. After we finish our investigation, we
will tell you our decision. At that point, if we think you owe an amount and you do not pay, we may report you as delinquent.
18.
AMENDMENTS. We reserve the right to change any terms or conditions of this Agreement at any time, to the extent
permitted by applicable law. We will notify you of the changes to this Agreement as required by law.
19.
GOVERNING LAW. This Agreement will not take effect until it is approved by us. This Agreement shall be governed by
the laws of the State of Alaska.
20.
NOTICE AND AGREEMENT. You understand and agree to the terms and conditions in this VISA Credit Card Agreement.
You acknowledge that you have received a copy of the Agreement. This Agreement is a final expression of the agreement between
you and the Credit Union. This Agreement may not be contradicted by evidence of any oral agreement or alleged oral agreement
and contains the terms applicable to the credit transaction.
21.
SEVERABILITY. In the event that any provision of this Agreement, or the application of any such provision to any person
or set of circumstances, shall be determined to be invalid, unlawful, void or unenforceable to any extent, the remainder of this
Agreement, and the application of such provision to persons or circumstances other than those as to which it is determined to be
invalid, unlawful, void or unenforceable, shall not be impaired or otherwise affected and shall continue to be valid and enforceable
to the fullest extent permitted by law.

